Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




 MEDICARE IMPROPERLY PAID
  MILLIONS OF DOLLARS FOR
PRESCRIPTION DRUGS PROVIDED
  TO UNLAWFULLY PRESENT
   BENEFICIARIES DURING
     2009 THROUGH 2011

  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                  Daniel R. Levinson
                                                   Inspector General

                                                     October 2013
                                                     A-07-12-06038
                        Office of Inspector General
                                        https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

  Medicare Part D accepted prescription drug event records totaling almost $29 million in
  unallowable gross drug costs on behalf of unlawfully present beneficiaries during
  calendar years 2009 through 2011.


WHY WE DID THIS REVIEW

Federal health care benefits are generally allowable when provided to a beneficiary who is either
a U.S. citizen or a U.S. national or to an alien who is lawfully present in the United States. But
when the alien beneficiary is present in the United States on an unlawful basis (unlawfully
present), Federal health care benefits are not allowable. We are conducting a series of reviews
examining Medicare payments made on behalf of unlawfully present beneficiaries. We
previously reported that Medicare made improper Part A and Part B payments totaling
$91.6 million to health care providers for services to unlawfully present beneficiaries. This is a
review of payments made on behalf of unlawfully present beneficiaries in Medicare Part D.

The objective of this review was to determine the extent to which the Centers for Medicare
& Medicaid Services (CMS) accepted prescription drug event (PDE) records submitted by
sponsors on behalf of unlawfully present beneficiaries during calendar years (CYs) 2009 through
2011.

BACKGROUND

Medicare Part D offers prescription drug benefits to individuals entitled to benefits under
Medicare Part A or enrolled in Part B. CMS, which administers Medicare, contracts with private
prescription drug plans and Medicare Advantage plans (collectively known as sponsors) to offer
prescription drug benefits to eligible individuals. Sponsors are paid prospectively, and CMS
makes final payment determinations each year by adjusting the sponsors’ payments using
information from the PDE records.

Federal health care benefits are not allowable for services provided to unlawfully present
beneficiaries. CMS has specifically implemented a policy that bars Federal payments for health
care services provided to unlawfully present beneficiaries in Medicare Parts A and B.
Furthermore, an individual is eligible for Part D benefits if he or she is entitled to Medicare
benefits under Part A or enrolled in Part B and lives in the service area of a Part D plan. Thus,
Federal law prohibits Part D payments for prescription drugs provided to unlawfully present
beneficiaries.

For CYs 2009 through 2011, sponsors submitted final PDE records to CMS with gross drug costs
totaling approximately $227 billion.

WHAT WE FOUND

Of the PDE records submitted by sponsors for CYs 2009 through 2011, CMS inappropriately
accepted 279,056 PDE records with unallowable gross drug costs totaling $28,990,718 on behalf

Medicare Part D Payments for Unlawfully Present Beneficiaries (A-07-12-06038)                        i
of 4,139 unlawfully present beneficiaries and used those records to make its final payment
determinations to sponsors.

CMS did not have a policy addressing payments for unlawfully present beneficiaries under
Medicare Part D that was equivalent to the existing policy that covers payments for these
beneficiaries under Parts A and B. Because CMS did not have such a policy, it did not have
internal controls to identify and disenroll unlawfully present beneficiaries and to automatically
reject PDE records associated with them. Without such a policy, CMS incorrectly treated
unlawfully present beneficiaries as eligible for Part D benefits and did not prevent Part D
payments on behalf of them.

WHAT WE RECOMMEND

We recommend that CMS:

  •   resolve improper Part D payments made for prescription drugs provided to unlawfully
      present beneficiaries by reopening and revising CYs 2009 through 2011 final payment
      determinations to remove prescription drug costs for unlawfully present beneficiaries;

  •   develop and implement controls to ensure that Medicare does not pay for prescription
      drugs for unlawfully present beneficiaries by preventing enrollment of unlawful
      beneficiaries, disenrolling any currently enrolled unlawful beneficiaries, and automatically
      rejecting PDE records submitted by sponsors for prescription drugs provided to this
      population; and

  •   identify and resolve improper payments made for prescription drugs provided to
      unlawfully present beneficiaries by reopening and revising final payment determinations
      for periods after the period of this review but before implementation of policies and
      procedures.

CMS COMMENTS AND OUR RESPONSE

In written comments on our draft report, CMS concurred with our first two recommendations
and described corrective actions that it planned to take. Specifically, CMS indicated that it
would first address policy and system changes and would then reopen each year to recover
improper payments. CMS did not concur with our third recommendation because, it said, there
was no effective way to fully recover the improper payments in question without first
implementing the appropriate policies and procedures, including the relevant systems changes.

We acknowledge that CMS is developing and implementing policies and procedures that would
address enrollment of unlawful beneficiaries. However, we maintain that once CMS has begun
the process of recovering improper payments, it should continue and resolve any improper
payments that were incurred after the period of this review until system changes are in place that
would effectively prohibit the coverage of these beneficiaries under Medicare Part D.




Medicare Part D Payments for Unlawfully Present Beneficiaries (A-07-12-06038)                       ii
                                                     TABLE OF CONTENTS


INTRODUCTION .................................................................................................................1

           Why We Did This Review .........................................................................................1

           Objective ....................................................................................................................1

           Background ................................................................................................................1
                 Medicare Prescription Drug Coverage...........................................................1
                 Prohibition of Federal Health Care Benefits for
                   Unlawfully Present Beneficiaries ...............................................................2

           How We Conducted This Review..............................................................................3

FINDINGS .............................................................................................................................3

           Medicare Paid for Prescription Drugs for Unlawfully Present
             Beneficiaries .........................................................................................................3
                 Federal Requirements ....................................................................................3
                 Medicare Accepted Prescription Drug Event Records
                   With Gross Drug Costs Totaling Almost $29 Million
                   for Unlawfully Present Beneficiaries ..........................................................4

           Medicare Had No Policy To Prevent Improper Payments for
             Prescription Drugs for Unlawfully Present Beneficiaries .....................................4

RECOMMENDATIONS .......................................................................................................5

CMS COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE .................5

APPENDIXES

           A: Audit Scope and Methodology ............................................................................6

           B: CMS Comments ...................................................................................................7




Medicare Part D Payments for Unlawfully Present Beneficiaries (A-07-12-06038)                                                                iii
                                              INTRODUCTION

WHY WE DID THIS REVIEW

Federal health care benefits are generally allowable when provided to a beneficiary who is either
a U.S. citizen or a U.S. national or to an alien who is lawfully present in the United States. But
when the alien beneficiary is present in the United States on an unlawful basis (unlawfully
present), Federal health care benefits are not allowable. We are conducting a series of reviews
examining Medicare payments made on behalf of unlawfully present beneficiaries. We
previously reported that Medicare made improper Part A and Part B payments totaling
$91.6 million to health care providers for services to unlawfully present beneficiaries. 1 This is a
review of payments made on behalf of unlawfully present beneficiaries in Medicare Part D.

OBJECTIVE

Our objective was to determine the extent to which the Centers for Medicare & Medicaid
Services (CMS) accepted prescription drug event (PDE) records submitted by sponsors on behalf
of unlawfully present beneficiaries during calendar years (CYs) 2009 through 2011.

BACKGROUND

Medicare Prescription Drug Coverage

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people aged 65 and over, people with disabilities, and people with
permanent kidney disease. Under Medicare Part D, which began January 1, 2006, 2 individuals
entitled to benefits under Part A or enrolled in Part B may obtain prescription drug coverage.
CMS, which administers Medicare, contracts with private prescription drug plans and Medicare
Advantage plans (collectively known as sponsors) to offer prescription drug benefits to eligible
individuals.

As a condition of payment, every time a Medicare beneficiary fills a prescription covered under
Part D, the sponsor must submit a PDE record to CMS. 3 PDE records (which are collectively
referred to as “PDE data”) include drug cost and payment information that enables CMS to
administer the Part D benefit. Sponsors must submit final PDE records to CMS within 6 months
after the end of the coverage year (42 CFR § 423.343(c)(1)).




1
 Medicare Improperly Paid Providers Millions of Dollars for Unlawfully Present Beneficiaries Who Received
Services During 2009 Through 2011, A-07-12-01116, issued January 23, 2013.
2
 Title I of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003 (P.L. No. 108-173 § 101)
amended Title XVIII of the Act (§ 1860D-1(a); 42 U.S.C. § 1395w-101(a)) to establish the Voluntary Prescription
Drug Benefit Program, known as Medicare Part D.
3
    The Act, §§ 1860D-15(c)(1)(C) and (d)(2); 42 CFR § 423.322.


Medicare Part D Payments for Unlawfully Present Beneficiaries (A-07-12-06038)                                 1
For CYs 2009 through 2011, sponsors submitted final PDE records totaling approximately
$227 billion in gross drug costs to CMS. 4

CMS pays sponsors for Part D benefits prospectively. 5 These prospective payments are based on
information in the sponsors’ approved annual bids. After the close of the coverage year, CMS
reconciles the prospective payments with the actual costs incurred by sponsors and determines
the amount that each sponsor will owe to or receive from Medicare for the plan year. CMS’s
reconciliations are based on sponsors’ final PDE data. CMS uses these data to make payments to
drug sponsors and administer the Part D benefit. 6

Prohibition of Federal Health Care Benefits for
Unlawfully Present Beneficiaries

Federal health care benefits, including benefits under Medicare Parts A and B, are generally
allowable when provided to a beneficiary for whom the Social Security Administration (SSA)
has evidence in its records that the beneficiary is either a U.S. citizen or a U.S. national but are
generally not allowable for unlawfully present aliens. Federal statute prohibits aliens who are
not classified as “qualified aliens” from receiving Federal public benefits, to include Federal
health care benefits. 7 Accordingly, CMS has specifically prohibited payments for health care
services provided to these unlawfully present aliens under Medicare Parts A and B.
Furthermore, an individual is eligible for Part D benefits if he or she is entitled to Medicare
benefits under Part A or enrolled in Part B and lives in the service area of a Part D plan. Thus,
Federal law prohibits Part D payments for prescription drugs provided to unlawfully present
beneficiaries.

In 2003, CMS issued a Program Memorandum 8 that set forth the following payment policy:
“Make no payments for Medicare services furnished to an alien beneficiary who is not lawfully
present in the United States.” 9 CMS also implemented a system edit to automatically reject


4
 CMS defines “gross drug costs” as the sum of the following PDE payment fields: covered plan paid amount,
noncovered plan paid amount, patient pay amount, low-income cost-sharing payment, other true out-of-pocket costs,
and patient liability reduction as a result of another payer amount (Instructions: Requirements for Submitting
Prescription Drug Event Data, section 7.2.3).
5
    The Act, §§ 1860D-14 and 15; 42 CFR § 423.315.
6
    42 CFR §§ 423.329 and 423.343.
7
 Subtitle A of section 401 of the Personal Responsibility and Work Opportunity Reconciliation Act of 1996,
P.L. No. 104-193 (PRWORA), 8 U.S.C. § 1611, as subsequently amended by the Balanced Budget Act of 1997,
P.L. No. 105-33, § 5561.
8
  CMS, Payment Denial for Medicare Services Furnished to Alien Beneficiaries Who Are Not Lawfully Present in
the United States, Program Memorandum Intermediaries/Carriers, Transmittal AB-03-115 (Change Request 2825,
August 1, 2003).
9
 This payment policy was incorporated in the Medicare Claims Processing Manual in September 2004 (chapter 1,
section 10.1.4.8).



Medicare Part D Payments for Unlawfully Present Beneficiaries (A-07-12-06038)                                   2
Parts A and B claims for beneficiaries who are, according to CMS’s Medicare Enrollment
Database, unlawfully present.

HOW WE CONDUCTED THIS REVIEW

We identified PDE records associated with unlawfully present individuals in CMS’s Enrollment
Database 10 as of May 21, 2012.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains details of our audit scope and methodology.

                                                 FINDINGS

Of the PDE records submitted by sponsors for CYs 2009 through 2011, CMS inappropriately
accepted 279,056 PDE records with unallowable gross drug costs totaling $28,990,718 on behalf
of 4,139 unlawfully present beneficiaries and used those records to make its final payment
determinations to sponsors.

CMS did not have a policy addressing payments for unlawfully present beneficiaries under
Medicare Part D that was equivalent to the existing policy that covers payments for these
beneficiaries under Parts A and B. Because CMS did not have such a policy, it did not have
internal controls to identify and disenroll unlawfully present beneficiaries and to automatically
reject PDE records associated with them. Without such a policy, CMS incorrectly treated
unlawfully present beneficiaries as eligible for Part D benefits and did not prevent Part D
payments on behalf of them.

MEDICARE PAID FOR PRESCRIPTION DRUGS FOR UNLAWFULLY PRESENT
BENEFICIARIES

Federal Requirements

Medicare benefits are generally allowable when provided to a beneficiary for whom the SSA has
evidence in its records that the beneficiary is either a U.S. citizen or a U.S. national. Medicare


10
  CMS’s Enrollment Database uses information from SSA to identify unlawfully present beneficiaries. SSA
collects the names of Medicare beneficiaries who lose their status of being lawfully present in the United States
from the Department of Homeland Security and other Federal agencies. For these individuals, SSA also collects the
dates on which their lawful presence status ended and, in some instances, restarted. When SSA’s information
indicates that a beneficiary’s lawful presence has ended, CMS classifies the individual as unlawfully present for
Medicare purposes. The end date of lawful presence as indicated by SSA’s data systems becomes the start date on
which these individuals are not eligible to receive Medicare benefits.



Medicare Part D Payments for Unlawfully Present Beneficiaries (A-07-12-06038)                                   3
payments are also allowable for services furnished to an alien who is lawfully present in the
United States (the Act, §§ 202, 226, 226A, 1818, and 1818A).

However, Federal law prohibits CMS from making payments to sponsors on behalf of unlawfully
present Part D beneficiaries (8 U.S.C. § 1611(a), enacted as part of the PRWORA). 11
Specifically, this statute states: “… an alien who is not a qualified alien … is not eligible for any
Federal public benefit….”

Medicare Accepted Prescription Drug Event Records With Gross Drug Costs
Totaling Almost $29 Million for Unlawfully Present Beneficiaries

Contrary to Federal requirements, CMS accepted 279,056 PDE records with unallowable gross
drug costs totaling $28,990,718 on behalf of 4,139 unlawfully present beneficiaries and used
those records to make its final payment determinations to sponsors. 12

MEDICARE HAD NO POLICY TO PREVENT IMPROPER PAYMENTS FOR
PRESCRIPTION DRUGS FOR UNLAWFULLY PRESENT BENEFICIARIES

CMS has implemented a policy regarding the prohibition of Medicare Parts A and B payments
for unlawfully present beneficiaries. However, CMS did not have a similar policy for unlawfully
present beneficiaries under Medicare Part D. Because CMS did not have such a policy, it did not
have internal controls in place to prevent payments on behalf of these unlawfully present
beneficiaries. CMS implemented internal controls for Parts A and B in the form of a system edit
to automatically reject Parts A and B claims for unlawfully present beneficiaries, as shown in
CMS’s Enrollment Database. However, CMS did not have similar controls for Part D to
disenroll unlawfully present beneficiaries and to automatically reject PDE records associated
with them.

Without such a policy, CMS incorrectly treated unlawfully present beneficiaries as eligible for
Part D benefits and did not prevent Part D payments on behalf of them.




11
   The Attorney General defined the phrase “lawfully present in the United States” in regulations published on
September 6, 1996, by the Immigration and Naturalization Service (whose functions are now handled by the
Department of Homeland Security). This regulation identifies and defines five broad categories of lawfully present
aliens, including “qualified aliens” (8 U.S.C. § 1641(b)).

12
  As stated in “Background,” CMS is responsible, after the close of a coverage year, for reconciling the prospective
payments with the actual costs incurred by sponsors and for determining the amount that each sponsor will owe to or
receive from Medicare for the plan year. According to the Congressional Budget Office, beneficiaries’ premium
payments cover about one-quarter of the overall costs of the basic Part D benefit and Federal payments to sponsors
cover the other three-quarters of these costs. Furthermore, in some cases, some beneficiaries receive additional
Federal assistance based on their financial status. Because Part D is funded in this way, the $28,990,718 in
inappropriately accepted PDE records that this report has identified does not represent the total amount funded by
the Federal Government.


Medicare Part D Payments for Unlawfully Present Beneficiaries (A-07-12-06038)                                        4
                                       RECOMMENDATIONS

We recommend that CMS:

  •   resolve improper Part D payments made for prescription drugs provided to unlawfully
      present beneficiaries by reopening and revising CYs 2009 through 2011 final payment
      determinations to remove prescription drug costs for unlawfully present beneficiaries;

  •   develop and implement controls to ensure that Medicare does not pay for prescription
      drugs for unlawfully present beneficiaries by preventing enrollment of unlawful
      beneficiaries, disenrolling any currently enrolled unlawful beneficiaries, and automatically
      rejecting PDE records submitted by sponsors for prescription drugs provided to this
      population; and

  •   identify and resolve improper payments made for prescription drugs provided to
      unlawfully present beneficiaries by reopening and revising final payment determinations
      for periods after the period of this review but before implementation of policies and
      procedures.

       CMS COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, CMS concurred with our first two recommendations
and described corrective actions that it planned to take. Specifically, CMS indicated that it
would first address policy and system changes and would then reopen each year to recover
improper payments. CMS did not concur with our third recommendation because, it said, there
was no effective way to fully recover the improper payments in question without first
implementing the appropriate policies and procedures, including the relevant systems changes.

CMS’s comments are included in their entirety as Appendix B.

We acknowledge that CMS is developing and implementing policies and procedures that would
address enrollment of unlawful beneficiaries. However, we maintain that once CMS has begun
the process of recovering improper payments, it should continue and resolve any improper
payments that were incurred after the period of this review until system changes are in place that
would effectively prohibit the coverage of these beneficiaries under Medicare Part D.




Medicare Part D Payments for Unlawfully Present Beneficiaries (A-07-12-06038)                    5
                    APPENDIX A: AUDIT SCOPE AND METHODOLOGY

The audit scope covered approximately $227 billion in gross drug costs reflected in sponsors’
final PDE records for CYs 2009 through 2011. We did not review CMS’s overall internal
control structure because our objective did not require us to do so. We reviewed only the
internal controls directly related to our objective.

We performed fieldwork from May through September 2012.

METHODOLOGY

To accomplish our objective, we:

     •   reviewed applicable Federal laws, regulations, and guidance;

     •   held discussions with CMS officials to gain an understanding of CMS’s controls related
         to unlawfully present beneficiaries;

     •   used the Enrollment Database (as of May 21, 2012) to identify the 279,056 PDE records
         (with gross drug costs totaling $28,990,718) associated with unlawfully present
         individuals for CYs 2009 through 2011; 13 and

     •   discussed the results of our review with CMS officials, and gave them detailed data on
         our findings, on March 12, 2013.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




13
  These numbers reflect only covered drugs. We had previously adjusted the PDE records by removing all PDE
records for noncovered drugs, such as over-the-counter drugs.


Medicare Part D Payments for Unlawfully Present Beneficiaries (A-07-12-06038)                                6
                                          APPENDIX B: CMS COMMENTS 




   .·"'J-"""'""«t,    DEPARTMENT OF HEALTH & HUMAN SERVICES
   ,.,._
  { .sr 	                                                                                      Centers for Medicare & Medicaid Services


                                                                                               Administrator
                                                                                               Washington, DC 2020 t




                     DATE:        AUG -9 2013
                     TO: 	         Daniel R. Levinson
                                   Inspector General

                     FROM:         Marilyn Tavenner ~,1.,'.J/J."'l<"'~r-ilv~J.....JV""-''T'....-11;
                                   Administrator

                     SUBJECT: 	 Office oflnspector General (OIG) Draft Report: "Medicare Improperly Paid
                                Millions of Dollars for Prescription Drugs Provided to Unlawfully Present
                                Beneficiaries During 2009 Through 20 II " (A-07-12-06038)


                     Thank you for the opportunity to re view and comment on this OIG draft report aimed at
                     determining the extent to which the Centers for Medicare & Medicaid Services (CMS) accepted
                     prescription drug event (POE) records submitted by sponsors on behalf of individuals who are
                     not lawfully present in the United States. Generally, entitlement to the Medicare program is
                     dependent upon eligibility to Social Security benefits regardless of lawful presence status.
                     However the Personal Res ponsibility and Work Opportunity Reconciliation Act of 1996
                     (PRWORA) states that unlawfully present individuals are not eligible for any federal public
                     benefits, including federal health care benefits.

                     The CMS supports the report's recommendations to strengthen internal controls as applicable to
                     help ensure that payment for Medicare Part D services comply with Federal requirements to the
                     extent that information is available to do so. Accordingly, we agree that in cases where the
                     information indicates an individual is not lawfully present in the United States, that individual
                     should not be permitted to enroll or to remain enrolled in a Part D plan during the period where
                     he or she is not eligible to receive federal benefits in accordance with PRWORA.

                     The CMS is taking steps to address this issue and ensure that the intent of PRWORA is executed
                     in accordance with the information we receive from the Department of Homeland Security and
                     the Social Security Administration regarding individuals not lawfully present in the United
                     States.

                     Below are the CMS' responses to the OIG recommendations in the draft report.

                     OIG Recommendation

                     The OIG recommends CMS resolve improper Part D payments made for prescription drugs 

                     provided to unlawfully present beneficiaries by reopening and revising CYs 2009 through 2011 





Medicare Part D Payments for UnlawfUlly Present Beneficiaries (A -07-12-06038)                                                            7
              Page 2- Daniel R. Levinson


              final payment determinations to remove prescription drug costs for unlawfully present
              beneficiaries.

              CMS Response

              The CMS concurs with this recommendation. After implementing regulations clarifying the
              relevant policy, CMS will update the applicable eligibility and enrollment systems. This in tum
              will facilitate the appropriate changes to the prescription drug event (POE) data. CMS will
              conduct a reopening on each year to recover the overpayments.

              OIG Recommendation

              The OIG recommends CMS develop and implement controls to ensure that Medicare does not
              pay for prescription drugs for unlawfully present beneficiaries by preventing enrollment of
              unlawful beneficiaries, disenrolling any currently enrolled unlawful beneficiaries, and
              automatically rejecting POE records submitted by sponsors for prescription drugs provided to
              this population.

              CMS Response

              The CMS concurs with this recommendation to prevent improper payments of Part D services to
              individuals not lawfully present in the United States. CMS will seek to codify the eligibility
              requirements in regulation, and establish an operational mechanism to relay lawful presence
              status to plans for their use in determining eligibility for new and/or continued enrollment and
              receipt of Medicare covered services. Upon disenrollment from a Medicare prescription drug
              plan sponsor, CMS will no longer pay for services rendered to the individual.

              OIG Recommendation

              The 010 recommends CMS identify and resolve improper payments made for prescription drugs
              provided to unlawfully present beneficiaries by reopening and revising final payment
              determinations for periods after the period of this review but before implementation of policies
              and procedures.

              CMS Response

              The CMS non-concurs with this recommendation. There is no effective way of fully recovering
              these payments without first implementing the appropriate policies and procedures including the
              relevant systems changes.

              We appreciate the effort that went into this report. Again, we thank you for the opportunity to 

              review and comment. 





Medicare Part D Payments for UnlawfUlly Present Beneficiaries (A -07-12-06038)                                    8
